OIG Audit Report GR-30-99-003
Office of Justice Programs Police Hiring Supplement Grant Awarded to the Newport News, Virginia, Police Department
Audit Report GR-30-99-003
April 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance, to the Newport News, Virginia, Police Department (Police Department).  The Police Department received a grant of $1,500,000 to hire or rehire 20 additional sworn officers under the Police Hiring Supplement (PHS) program.  The purpose of the grant was to enhance community policing efforts.

Generally the Police Department properly managed the PHS grant:

Costs charged to the grant were in accordance with the grant. 

	Budgeted funds for police services increased and the number of officers budgeted have increased every year since FY 1993, the year before the PHS grant.  In addition, the Police Department appeared to be making a good faith effort to fill officer vacancies timely.

	Funds provided under the grant were used to enhance the Police Department's community policing efforts.  The number of officers performing community policing activities increased by the number of officers funded under the grant.

However, the Police Department violated the following grant condition:

The city of Newport News did not provide the required 25 percent in matching funds.  The difference between the amount reimbursed to the city and the allowable federal share, $119,082, is considered questioned costs.

These items are discussed in the FINDINGS AND RECOMMENDATION section of the report.  Our SCOPE AND METHODOLOGY appear in APPENDIX II.